No. 21-

 

 

In THE
Supreme Court of the United States

KWS Inc., A MEMBER OF THE THIELE GROUP,

Petitioner,
Vv.

ERIC SCALLA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE PENNSYLVANIA SUPREME COURT
FOR THE EASTERN DISTRICT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,935 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 16, 2021.

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
